Management Advisory on EEOC's Performance Reporting
Skip top navigation
Skip to content
Español | Other Languages
U.S. Equal EmploymentOpportunity Commission
Home
About EEOC
Overview
The Commission
Meetings of the Commission
Open Government
Newsroom
Laws, Regulations, Guidance & MOUs
Budget & Performance
Enforcement & Litigation
Initiatives
Interagency Programs
Publications
Statistics
Outreach & Education
Legislative Affairs
FOIA & Privacy Act
Doing Business with EEOC
Jobs & Internships
EEOC History
Office of Inspector General
Employees & Applicants
Overview
Coverage
Timeliness
Filing A Charge
How to File
Charge Handling
Confidentiality
Mediation
Remedies
Existing Charges
Filing a Lawsuit
Discrimination by Type
Age
Disability
Equal Compensation
Genetic Information
Harassment
National Origin
Pregnancy
Race/Color
Religion
Retaliation
Sex
Sexual Harassment
Prohibited Practices
Employers
Overview
Coverage
Charge Handling
Resolving a Charge
Remedies
Discrimination by Type
Age
Disability
Equal Compensation
Genetic Information
Harassment
National Origin
Pregnancy
Race/Color
Religion
Retaliation
Sex
Sexual Harassment
Prohibited Practices
Recordkeeping
EEO Reports/Surveys
"EEO Is The Law" Poster
Training
Other Employment Issues
Federal Agencies
Overview
Federal Employees & Applicants
Federal Complaint Process
Discrimination by Type
Other Federal Protections
Prohibited Practices
Federal EEO Coordination
Federal Agency EEO Directors
Laws, Regulations, Guidance & MOUs
Management Directives & Federal Sector Guidance
Federal Sector Alternative Dispute Resolution
Federal Sector Reports
Appellate Decisions
Digest of EEO Law
Form 462 Reporting
Federal Training & Outreach
Contact Us
Contact EEOC
Find Your Nearest Office
Frequently Asked Questions
Home > About EEOC > Office of Inspector General
MANAGEMENT ADVISORY
TO
:
Diedre Flippen, Director
Office of Research, Information and Planning
Ronald Cooper, General Counsel
Office of General Counsel
Nicholas Inzeo, Director
Office of Field Programs
FROM
:
Aletha L. Brown
Inspector General
SUBJECT
:
Management Advisory on EEOCs Performance Reporting
(OIG Evaluation No. 2005-02-AMR)
The Office of Inspector General (OIG) conducted Phase I of a review of key Agency performance measures to establish baseline information for future studies. Phase II will assess FY 2007 data. We plan on gathering much of the data in the 4th quarter of FY 2007, with the remainder in early FY 2008.
In Phase I, the objectives of the assessment are to provide EEOC managers, stakeholders, and the public with an independent judgment of whether key performance data can be verified in a reasonable manner and to assist EEOC in improving data reliability.
The scope of our review focused on the reliability of FY 2004 data for the following key Agency performance measures:
percentage of private sector cases resolved within 180 days
satisfaction with private sector mediation services
success rate of litigation
We tested the reliability of information in the databases where the performance data was compiled by verifying the information against information from the EEOC Field Offices where the work is performed. Due to the large number of private sector cases, we tested a random sample of 201 cases. We reviewed all mediation surveys EEOC received during its FY 2004 sampling period. We also reviewed the files of all 342 litigated cases resolved in FY 2004.
Findings
The table below contains our preliminary findings.
Timeliness of Case Closures Data
Litigation Success Data
Confidence in Mediation Data
1. Our review found 95 percent of files have adequate documentation supporting the accuracy of time taken to close cases.
1. Litigation success data is, overall, accurate, but discrepancies in data entry need to be significantly reduced.
2. The definition of success in litigation is not clear and meaningful, creating two major problems. First, even minor improvements in employer policy and procedure and insignificant financial settlements are equal to major improvements in employer policies and major financial settlements. Second, an unclear definition does not promote balanced decision making on the success of cases.
1. The mediation survey data is accurately reported. However, the data may not be reliable, due to quality control issues. The significant percentage of problematic surveys (though accurately recorded) detract from the reliability of the results. These problems include surveys with no case number, no responses to all or many questions, or other problems.
If you have any questions, please contact Larkin Jennings at larkin.jennings@eeoc.gov or 202-663-4391.
Privacy Policy | Disclaimer | USA.Gov